U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


  FOLLOWUP OF RECOMMENDATIONS
         RELATING TO THE
      BUREAU OF CORRECTIONS,
      DEPARTMENT OF JUSTICE,
 GOVERNMENT OF THE VIRGIN ISLANDS


             REPORT NO. 98-I-468
                 MAY 1998
I
                                                                                V-IN-VIS-003-97

                   United States Department of the Interior
                                  OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20240




                                      AUDIT REPORT

    Honorable Roy L. Schneider                             MAY     29   I998
    Governor of the Virgin Islands
    No. 21 Kongens Gade
    Charlotte Amalie, Virgin Islands 00802

    Subject:    Audit Report on Followup of Recommendations Relating to the Bureau of
                Corrections, Department of Justice, Government of the Virgin Islands
                (1’Jo. 98-I-468)

    Dear Governor Schneider:

    This report presents the results of our followup review of recommendations contained in four
    prior audit reports on the Bureau of Corrections, Virgin Islands Department of Justice (see
    Prior Audit Coverage). The objective of this review was to determine whether the Bureau
    had satisfactorily implemented the recommendations in the prior reports and whether any
    new recommendations were warranted.

    BACKGROUND
    The Bureau of Corrections was established within the Office of the Governor by Title 5,
    Chapter 401, of the Virgin Islands Code. In fiscal year 1987, the Bureau was placed under
    the administrative control of the Virgin Islands Department of Justice as a result of the
    Government’s Executive Branch reorganization. The mission of the Bureau includes
    providing for the custody and care of inmates detained in correctional and detention facilities
    for felonies and misdemeanors. The Bureau’s operating budget totaled $12.7 million in
    fiscal year 1996 and $13.8 million in fiscal year 1997.

    The Director of Corrections is the chief administrator and fiscal officer of the Bureau and is
    appointed by the Governor with the advice and consent of the Legislature. The Bureau
    operates four correctional facilities within the Virgin Islands: the Golden Grove Adult
    Correctional Facility and the Anna’s Hope Adult Detention Center on St. Croix and the
    Alexander Farrelly Criminal Justice Complex and the Criminal Justice Complex Annex on
    St. Thomas. As of September 1997, these facilities housed more than 500 inmates, with
    another 190 inmates (including 70 inmates who were transferred to Arizona in July 1997)
    held in correctional facilities in the continental United States because of overcrowding
    conditions.
SCOPE OF AUDIT
To accomplish our audit objective, we reviewed documents and records pertaining to the
Bureau’s operations during fiscal years 1995 through 1997 and to policies and procedures
in effect at the time of the audit. We also inspected the four facilities administered by the
Bureau and interviewed Bureau and Virgin Islands Department of Justice personnel
regarding actions taken to implement the prior audit recommendations.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. Because of the limited scope and objective of our review, we
reviewed internal controls only to the extent that they related to corrective actions taken on
the prior recommendations.

PRIOR AUDIT COVERAGE
From 199 1 to 1993, the Office of Inspector General issued four audit reports on the Bureau,
which disclosed deficiencies in the areas of security and maintenance; prison overcrowding;
inmate care, rehabilitation, and safety; and administrative functions. The four audit reports
contained a total of 45 recommendations on the Bureau of Corrections as follows:

       - The August 1991 report “Security and Maintenance of Correctional Facilities,
Government of the Virgin Islands” (No. 9 1 -I- 1188) stated that the Bureau of Corrections had
not implemented adequate measures to ensure that correctional facilities in the Virgin Islands
were secure and properly maintained. Specifically, the report noted that (1) inmates were not
adequately monitored and supervised, (2) internal and perimeter security equipment and
systems were not fully operable, (3) inmates and visitors were not adequately screened to
prevent the introduction of contraband such as drugs and weapons, (4) a comprehensive
preventive maintenance and repair program had not been established, and (5) available
Federal funds for needed maintenance and repair were not used effectively. The report’s
16 recommendations were classified as resolved but not implemented based on the
Government’s response to the report.

         - The October 1991 report “Prison Overcrowding, Bureau of Corrections,
Government of the Virgin Islands” (No. 92-I-90) stated that correctional facilities in the
Virgin Islands housed 80 percent more inmates than their designed capacity. The report
further stated that (1) the Bureau of Corrections had not effectively analyzed and planned for
expansion of the prisons; (2) the Territorial and Federal Courts did not implement special
sentencing programs which could assist in relieving overcrowding conditions; and (3) the
Bureau improperly credited inmates with good conduct allowances that were not earned,
which reduced inmates’ prison sentences to less than court-ordered sentences. The report’s
five recommendations were classified as resolved but not implemented based on the
Government’s response to the report.
        - The December 1992 report “Inmate Care, Rehabilitation, and Safety, Bureau of
Corrections, Government of the Virgin Islands” (No. 93-I-363) stated that the Bureau of
Corrections and the Department of Human Services, which was responsible for programs at
the Youth Rehabilitation Center, had not adequately provided for the care, rehabilitation’ and
safety of incarcerated individuals. Specifically, the report noted that (1) bathing and drinking
water at correctional facilities was contaminated and unsafe for human use, (2) kitchen and
medical facilities at the Golden Grove prison were not clean and were unsanitary, (3) the
level of medical and dental services provided to inmates was inadequate, (4) existing
educational programs were only to the fifth-grade level, (5) vocational and prison industries
programs were not effective, (6) substance abuse treatment programs reached only a small
percentage of the target inmate population, (7) emergency alarm systems and emergency
exits were not functional, and (8) adequate fne fighting equipment was not available. The
report’s 10 recommendations were classified as unresolved based on the Government’s
response to the report.

         - The March 1993 report “Personnel, Property Management, and Procurement
Functions, Bureau of Corrections, Government of the Virgin Islands” (No. 93-I-670) stated
that the Bureau of Corrections needed to make improvements in its personnel, property
management, and procurement practices. Specifically, the report noted that the Bureau
(1) did not adequately staff or properly utilize corrections officers, which resulted in overtime
costs of about $1.3 million annually; (2) did not always hire the most qualified officer
candidates; (3) incurred excess salary costs of $138,000 by using corrections officers to
perform certain administrative duties; (4) did not develop a comprehensive, cost-effective
training program for new recruits and for in-service training; (5) did not maintain current and
accurate records of equipment and supplies; (6) did not comply with procurement regulations
concerning the use of over-the-counter purchases; and (7) lost about $37,000 in prompt
payment discounts because of delayed payments to vendors.                          The report’s
14 recommendations were classified as unresolved based on the Government’s response to
the report.

In addition, in January 1997, the Government of the Virgin Islands was cited by the U.S.
District Court for failing to comply with a court order to reduce overcrowding, house
mentally ill patients separately, and fix the deteriorating physical plant at the Criminal Justice
Complex on St. Thomas. Our current review disclosed that the Government had not fully
corrected these deficiencies.

                               RESULTS OF AUDIT
Of the 45 recommendations made in our four prior audit reports, we found that
7 recommendations were fully implemented, 22 recommendations were partially
implemented, and 16 recommendations were not implemented. (A summary of the status
of the recommendations is in Appendix 1, and the status of each recommendation and of the
corrective actions taken is in Appendices 2 through 5.) We found that the Bureau took
actions to (1) develop a plan to correct building deficiencies; (2) develop maintenance plans
to meet the grant requirements of the Federal agencies which provided funds for the repair
of correctional facilities; (3) institute a formal system for classifLi.ng inmates as to level of

                                                3
risk; (4) provide uniforms to corrections officers and inmates; (5) provide inmates with
medical and dental care, which included assigning a full-time registered nurse at the
Golden Grove prison; (6) transfer the Youth Rehabilitation Center to the Department
of Human Services; (7) provide a training facility on St. Croix for corrections officers; and
(8) develop “post orders” (descriptions of required duties) for all corrections o&er
positions. However, we found that deficiencies disclosed in the prior reports still existed,
primarily because (1) the Bureau did not have a permanent management team (the positions
of Director, Assistant Director, Warden, and Assistant Warden were all vacant at the time
of our follow-up review) which ensured that corrective actions were initiated and completed,
(2) the prison facilities on St. Thomas and St. Croix did not have standard operating
procedures and only the St. Thomas facilities had a comprehensive procedures manual, (3)
corrections personnel did not always follow established procedures, and (4) the
recommendations were not always implemented consistently on the two islands. As a result,
physical security at the correctional facilities continued to be compromised, repair and
maintenance problems existed, prison facilities were overcrowded, rehabilitative programs
for inmates were not fully effective, and deficiencies related to staffmg and training existed
within the Bureau.

Security and Maintenance of Correctional Facilities
Regarding our August 1991 audit report on the security and maintenance of correctional
facilities, our follow-up review determined that 3 of the 16 recommendations had been fully
implemented, 12 had been partially implemented, and 1 had not been implemented (see
Appendix 2). Although the Bureau had made improvements in the security and maintenance
of correctional facilities, further improvements were needed in the areas of physical security,
supervision of inmates, and inmate classification.

        Physical Security. The Bureau did not have a comprehensive procedures manual for
its St. Croix facilities that included specific policies on maintaining an adequate level of
security within the facilities, disposing of contraband found in the facilities, and controlling
the issuance of disposable razors to inmates. In addition, the Bureau allowed inmates at the
Golden Grove prison to cover their cell door windows and lock cell doors from the inside.
Further, corrections officers stationed in the perimeter guard towers at Golden Grove were
not provided with firearms that could serve as a deterrent to inmates attempting to escape
from the prison. At the Anna’s Hope facility, a secure control room with monitoring
equipment was not available, and the plumbing needed to be repaired. On St. Thomas,
access to the main control center at the Criminal Justice Complex was not restricted to
authorized corrections officers, and there was no full-time maintenance unit. The emergency
generator, ventilation system, and roof at the Criminal Justice Complex needed to be
repaired.

We also found that the Bureau had not fully implemented the corrective action plan imposed
on the Bureau by the U.S. District Court for improvements at the Golden Grove facility on
St. Croix. Although improvements were made in the areas of emergency care, medication,
and sanitation, the Bureau had not fully complied with the order in the areas of improving
fire safety, screening windows, and controlling tools. For example, we found that the central

                                               4
fire alarm system was inoperative, and the majority of dormitory windows were bent or
missing or had large holes in them. As a result, inmates got wet when it rained, and many
placed plastic bags or cardboard over the windows to prevent the rain from coming in. In
addition, the majority of window screens in the dormitories were missing or had large holes
in them.

        Supervision of Inmates. The Bureau had formal procedures for the work detail
programs at the correctional facilities on both islands. However, the established procedures
were not always followed’ particularly at the Golden Grove facility. For example, of the 108
inmates enrolled in the work detail program on St. Croix, 24 maximum security prisoners,
who had committed violent crimes such as first degree murder, were allowed to work in
areas such as the farm, the carpentry shop, and the kitchen, where they had access to tools
and other sharp objects that could be used in the conduct of violent acts against other inmates
or prison personnel. In addition, we found that 12 inmates had not served at least one-third
of their sentences, as required by established policies, before being considered for more
independent work detail assignments. We also found that, on both islands, inmates enrolled
in the work detail program were not always paid for their hours of work. Specifically, on
St. Croix, inmates had not been paid since 1995 because the money allotted for that purpose
was used for other Bureau expenses. Based on our review of records for the period of
December 1995 to August 1996, we found that 150 inmates at the Golden Grove facility
were owed about $69,000 for that 9-month period.

Although inmates at the Criminal Justice Complex on St. Thomas were allowed to
participate in work release programs based on the courts’ sentencing orders, the Bureau did
not have formal procedures for the work release program, and controls over inmates
participating in the work release program were not adequate. For example, the only
supervision of inmates in the work release program was in the form of occasional telephone
calls made to the inmates’ places of employment to determine whether they were at work.
At the time of our follow-up review, the work release program was not active on St. Croix.

        Inmate Classification. The Bureau did not ensure that emergency situations and
unusual incidents which occurred in the correctional facilities were recorded in the facilities’
logbooks. The number and the type of unusual incidents in the prisons were factors used by
Bureau officials to reclassify inmates from maximum to medium security or from medium
to minimum security. In addition, good conduct allowances, through which inmates’
sentences were reduced for good behavior, were also based on the number and type of
unusual incidents that occurred. However, because emergency situations and unusual
incidents were not routinely recorded in the correctional facilities’ logbooks for later
transcription to the individual inmates’ prison files, the potential existed for inmates to be
given a less restrictive security classification or a greater level of good conduct allowances
than was appropriate.

On St. Croix, cell assignments were not always appropriate based on the classification of the
inmates. For example, we found that high-risk prisoners were housed in the same cells as
low-risk prisoners at the Golden Grove facility. In one instance, a maximum security inmate
who had been convicted of frost degree murder and who was serving a mandatory life

                                               5
sentence was housed in a medium security dormitory and shared a cell with an inmate who
had committed robbery and had only 4 years remaining on a lo-year sentence. Another
inmate convicted of first degree murder who was serving a mandatory life sentence shared
a cell with an inmate who was serving his sentence on weekends. Moreover, because the
Anna’s Hope Detention Center did not have separate facilities for female detainees,
maximum security inmates and minimum security detainees, along with mentally ill females,
were housed together in the Golden Grove facility’s female dormitory.

On St. Thomas, the Bureau made cell assignments without regard to inmate classifications.
Specifically, all types of inmates, minimum to maximum security, were housed in the same
cell clusters. We believe that this practice did not provide adequate physical security for the
inmates, since the cell clusters at the Criminal Justice Complex were small. For example,
one convicted murderer who was serving a life sentence plus additional years shared a cell
with a minimum security inmate who was convicted for witness tampering. In addition,
because the Criminal Justice Complex was frequently understaffed, proper supervision was
not ensured. For example, one officer sometimes guarded two cell clusters simultaneously.

Prison Overcrowding
Regarding our October 1991 audit report on prison overcrowding, our followup review
determined that two of the five recommendations had been partially implemented and that
the remaining three had not been implemented (see Appendix 3). Specifically, although the
Bureau made efforts to alleviate prison overcrowding, it had not developed a comprehensive
plan to increase the overall capacity of prisons in the Virgin Islands. As a result’
overcrowding still existed.

        Overcrowding. The Criminal Justice Complex remained the most overcrowded
correctional facility, with an occupancy of 15 1 inmates and detainees, which was 196 percent
over the facility’s design capacity of 5 1 inmates and detainees. We observed as many as four
inmates occupying cells designed to hold an individual. As a result, inmates slept on
mattresses placed on the floor, some of which were directly adjacent to toilets or under bunk
beds. Although the Bureau had plans to complete renovation work on an annex to the
Criminal Justice Complex, which would have a capacity of 52 inmates, we found that the
renovation project was not progressing as intended because of insufficient funding.

Overcrowding was not as severe at the Golden Grove facility, where no more than two
inmates were assigned to each cell in the male section of the prison. However, the female
dormitory had one small room that contained seven bunk beds.

In an attempt to address the overcrowding, the Bureau, in July 1997, moved 70 inmates
(40 from Golden Grove and 30 from the Criminal Justice Complex) to a correctional
institution in Arizona. However, the Bureau’s projected cost of incarceration for each inmate
in Arizona was $60 per day, or more than $1.5 million per year, for the 70 inmates. The
Bureau also transferred 24 inmates from the Criminal Justice Complex on St. Thomas to the
Golden Grove facility on St. Croix, thereby reducing some of the overcrowding observed at
the St. Thomas facility.

                                              6
        Alternative Sentencing.     During our followup review, we did not find any
documentation that the Territorial Court of the Virgin Islands had conducted a feasibility
study on alternative sentencing programs, as had been recommended in our October 1991
audit report. However, the Territorial Court did make attempts to alleviate prison
overcrowding by implementing an alternative sentencing program known as the Pre-trial
Intervention Program. The purpose of this program was to give first-time misdemeanor
offenders an opportunity to perform community service instead of going to prison.
According to Territorial Court officials, about 500 individuals have participated in the
Pre-trial Intervention Program since 1985.

 Our follow-up review found that improvements were needed in the computation of good
conduct allowances earned by inmates. Based on our review of the records for 20 inmates
(10 on St. Thomas and 10 on St. Croix), we found that, for all of the inmates, the computed
release dates based on good conduct allowances were in error by amounts ranging from 1 day
to 6 l/2 months because of the mathematical formula used by the Bureau in computing good
conduct allowances. In addition, we found that the longer the inmates’ original sentences,
the larger the discrepancies in the computation of good conduct release dates because of the
longer time periods during which a discrepancy could be carried forward. Further, the
Bureau had not developed written procedures that included minimum-to-maximum ranges
for the forfeiture of good conduct allowances for subsequent incidences of misconduct, and
there were no formal procedures for recording infractions, forfeited good time allowances,
or adjustments to inmate release dates for misconduct in Bureau logbooks. As a result, the
potential existed for inmates to be awarded good conduct allowances to which they were not
entitled.

Inmate Care, Rehabilitation, and Safety
Regarding our December 1992 audit report on inmate care, rehabilitation, and safety, our
follow-up review determined that 2 of the 10 recommendations had been fully implemented,
4 had been partially implemented, and 4 had not been implemented (see Appendix 4).
Specifically, we found that’ although medical care had significantly improved, medications
were not adequately supplied; substance abuse and other rehabilitative programs were not
effective; and safety deficiencies existed’ such as inoperative smoke detectors and emergency
lighting, which could adversely affect inmate safety in an emergency situation.

       Inmate Care. The Bureau took actions to improve the level of medical and dental
care provided to inmates, including the assignment of a full-time registered nurse at the
Golden Grove facility. However, at the Golden Grove facility, 67 types of medicines were
completely or almost out of stock. Therefore, some inmates did not have the medications
they needed on a regular basis, such as those needed to control high blood pressure or mental
illness.

Regarding general cleanliness and sanitation, we found that the kitchen at the Criminal
Justice Complex had not passed its most recent (March 1997) inspection by the Department
of Health because food items in stock had expiration dates which had passed and also
because insects were found in the kitchen area. We also noted that kitchen equipment and

                                              7
utensils were blackened from years of use and were in generally poor operating condition.
In addition, corrections officers were allowed to take home kitchen equipment, such as pots
and pans, for personal use. Further, the Bureau was not providing inmates with personal
hygiene items (such as toothpaste, toothbrushes, and deodorant) on a regular basis.

        Rehabilitative Programs. We found that in fiscal year 1996, the Bureau received
two grants through the Virgin Islands Law Enforcement Planning Commission for vocational
education programs at the Golden Grove facility: $150,000 to purchase tools and video
training equipment and $137,000 to purchase supplies. Although $106,000 of the First grant
and $53,000 of the second grant had been expended through October 1996 to purchase such
items, the Bureau had not officially started a vocational education program. However,
classroom equipment had been purchased, and the classroom areas were being prepared.

During fiscal year 1996, the Bureau requested a grant budget adjustment whereby a 1 -year
extension, through September 30, 1997, was approved by the Law Enforcement Planning
Commission to begin the vocational education program at the Criminal Justice Complex.
The Bureau identified a Government-owned building that could be used rent free for the
program and earmarked $2 1,000 of the grant to purchase equipment. However, at the time
of our followup review, the program had not been started. Although the grant director wrote
to the Acting Warden requesting required status reports on the rental of the building that
could accommodate the vocational education program so that grant funds could be released,
we found no documentation that the Bureau had responded to those requests.

 Educational and substance abuse treatment programs were not effective. During fiscal years
 1996 and 1997, the Law Enforcement Planning Commission also awarded Bureau grants
totaling about $400,000 to establish substance abuse treatment programs within the
correctional facilities. Of that amount, $175,000 was specifically earmarked for construction
of separate facilities within the prisons to accommodate substance abusers. However, we
found that the potential existed for the Bureau to lose the grant funds because it may not be
able to use the funds for the construction of separate facilities or other program requirements
by September 30, 1998. Law Enforcement Planning Commission personnel told us that if
the grant funds were not used, they would be reprogrammed for use by the Youth
Rehabilitation Center, which was operated by the Virgin Islands Department of Human
Services. The potential also existed for the Government to lose an additional $170,000 of
the grant funds if a program for controlled substance testing is not implemented by
September 1998. At the time of our followup review, the only substance abuse treatment
program within the prisons consisted of occasional visits by representatives of Alcoholics
Anonymous and Narcotics Anonymous. Bureau officials told us that those meetings
generally were not well attended by inmates.

On St. Thomas, improvements were also needed in the implementation of a comprehensive
educational program for inmates. At the time of our followup review, the Bureau had two
volunteers who taught basic education courses to seven inmates at the Criminal Justice
Complex. However, a program had not been developed’ in coordination with the Department
of Education, to help inmates acquire functional literacy or obtain General Education


                                              8
Development high school equivalency certificates. In contrast, educational programs were
fully operational on St. Croix.

We believe that, without effective substance abuse, vocational education, and basic education
programs, inmates may not have the skills necessary to be successfully integrated into the
community upon their release.

        Inmate Safety. We found that the smoke detection system, emergency lighting, and
exit signs at the Golden Grove facility were not working effectively. In addition, doors of
the emergency exits at the Anna’s Hope Detention Center could not be opened, and
emergency keys were not easily accessible to corrections officers. These deficiencies could
adversely affect inmate safety in an emergency situation such as a fne.

Personnel, Property Management, and Procurement Practices
Regarding our March 1993 report on personnel, property management, and procurement
practices, our followup review determined that 2 of the 14 recommendations had been fully
implemented, 4 had been partially implemented, and 8 had not been implemented (see
Appendix 5). Specifically, the Bureau (1) was not recruiting and retaining an adequate
number of qualified corrections officers, (2) did not have comprehensive pre-service and in-
service training programs, and (3) had not implemented effective procedures to control its
property management and procurement functions.

        Recruitment and Retention.          The Bureau continued to have a shortage of
corrections officers, which resulted in overtime costs of $1.4 million in fiscal year 1996 and
$446,000 in fiscal year 1997 (through April 1997). In addition, the Bureau hired individuals
whose background investigations disclosed irregularities or potential reasons for not being
hired. For example, we reviewed the personnel files for a sample of 21 officers and found
that 2 applicants’ background investigations had disclosed that their social security numbers
and dates of birth were in conflict and that another 2 applicants had prior convictions or prior
involvement with selling and using illegal drugs. The Bureau also hired three applicants
without waiting for their entrance test scores, drug test results, or background investigation
results. We found one instance in which a member of the Bureau’s candidate selection
committee provided a personal recommendation for an applicant who was hired. We believe
that this personal recommendation may represent a conflict of interest on the part of the
selection committee member. These discrepancies occurred, in part, because the Bureau did
not have or follow formal policies and procedures for recruiting and hiring corrections
officers.

Our followup review also disclosed that the Bureau did not have a sufficient number of
administrative staff. As a result, corrections officers were assigned to administrative
positions, such as payroll clerk, purchasing officer, property manager, and cook.

Although the Bureau issued policy memoranda regarding the use of overtime, we found that
because of inadequate control, there was little assurance that time and attendance records
were reconciled with the overtime approval records.

                                               9
          Training. The Bureau continued to operate without a territorial training coordinator,
 who would be responsible for providing overall supervision and coordination of staff training
 programs at all facilities operated by the Bureau. Although the Bureau included a training
 plan as part of its procedural manual for the St. Thomas facilities, the training plan was not
 implemented. In addition, we found that the training provided was not standardized in that
 newly hired corrections officers on St. Thomas received 7 weeks of pre-service training but
 newly hired corrections officers on St. Croix received 12 weeks of pre-service training.
Further, we found that the personnel files for 14 corrections officers who had been on the
job over 1 year did not contain any documentation that they had received the 40 hours of
annual in-service training required by the corrections officers’ union contract.

        Property Management and Procurement. The Bureau did not have formal
property management procedures to ensure that Government identification numbers were
affixed to all equipment. In addition, inventory control procedures for materials and supplies
were inadequate. For example, although Bureau personnel on St. Croix maintained perpetual
inventory cards and performed weekly physical inventories, the inventory results were not
reconciled with the inventory cards; therefore, the cards did not accurately reflect the results
of the physical inventories. Additionally, the property officer was responsible for procuring,
receiving, and distributing supplies, which resulted in a lack of segregation of duties.
Further, access to the supply storeroom was not restricted during the weekend, when the
property officer was off duty. On St. Thomas, the acting property officer did not maintain
perpetual inventory cards or perform periodic physical inventories. We also found that the
Bureau had not established policies and procedures to ensure that purchases were not split
on over-the-counter purchases. *

Recommendations
We recommend that the Governor of the Virgin Islands require the Bureau of Corrections to:

        1. Reconsider the 38 recommendations in the prior audit reports that have not been
fully implemented (see Appendices l-5) and develop a plan which identifies the specific
corrective actions to be taken and includes titles of responsible officials and target dates to
achieve full implementation of these recommendations.

       2. Take necessary actions to expeditiously fill the Bureau positions of Director,
Assistant Director, Warden, and Assistant Warden.

       3. Ensure that Bureau personnel at the St. Croix facilities adopt the procedures
manual used by personnel at the St. Thomas facilities to provide consistent policies and
procedures for operations at all of the Bureau’s correctional facilities.




*Title 3 1, Section 239(3), of the Virgin Islands Code states that purchases in amounts not to exceed $5,000 may
be made on the open market without using competitive procurement procedures. However, not more than one
such purchase may be made f+om the same vendor for the same goods or services within a 30&y period.

                                                      10
        4. Establish procedures which ensure that adequate supervision is provided to
inmates who are allowed to leave the correctional facilities on work release assignments and
that inmates are promptly paid for work performed under the work release and work detail
programs. In addition, the recently developed procedures for operating the work detail
program should be implemented.

        5. Evaluate the level of staff resources and take actions to ensure that the
correctional facilities are adequately staffed to maintain a reasonable level of security at all
times and to minimize the need for overtime work by existing staff.

        6. Revise the existing recruitment and retention policies to ensure that all applicants
for corrections officer positions are properly qualified and pass all pre-hiring tests and
background investigations before they are hired. In addition, the Bureau should adopt
procedures to ensure that candidate selection committee members do not compromise their
independence by giving personal recommendations for applicants.

Governor of the Virgin Islands Response and OffIce of Inspector General


On March 19,1998, we transmitted a draft of this report to you requesting a response by
May 8, 1998. At the request of your Special Assistant for Audit and Policy Evaluation, we
granted an extension until May 15, 1998. However, a response to the draft report has not
been provided. Therefore, since this final report is being issued without benefit of your
response, all of the recommendations are considered unresolved (see Appendix 6).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant recommendation
on which corrective action has not been taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by June 30, 1998. The response should be addressed to our Caribbean Regional
Office, Federal Building - Room 207, St. Thomas, Virgin Islands 00802. The response
should provide the information requested in Appendix 6.

We appreciate the assistance of Bureau personnel in the conduct of our audit.

                                               Sincerely,



                                               Robert J. Williams
                                               Acting Inspector General




                                              11
I
                                                                   APPENDIX 1


                            SUMMARY OF THE STATUS OF
                             PRIOR RECOMMENDATIONS

        Audit Report                      Fully        Partially       Not
          Subi ect             Total   Implemented   Imnlemented   Imnlemented

    Security and
    Maintenance
    (Appendix 2)                16                       12             1

    Prison Overcrowding
    (Appendix 3)                 5                        2             3

    Inmate Care,
    Rehabilitation,
    and Safety
    (Appendix 4)                10            2           4             4

    Personnel, Property
    Management, and
    Procurement Practices
    (Appendix 5)                14            2          4             8

      Total                     45            =7         22 .          J&




                                         12
                                                                             APPENDIX 2
                                                                               Page 1 of 9



                  STATUS OF RECOMMENDATIONS
                    AND CORRECTIVE ACTIONS
                       FOR AUDIT REPORT
                 “SECURITY AND MAINTENANCE OF
                    CORRECTIONAL FACILITIES,
               GOVERNMENT OF THE VIRGIN ISLANDS”
                          (No. 91-1-l 188)
            Recommendations                            Status of Corrective Actions

A. 1. Develop and implement a                   Partially implemented. The Bureau
comprehensive procedures manual for the         developed and implemented a
Bureau of Corrections which includes            comprehensive procedures manual, which
specific policies with regard to the            was being used at the two correctional
maintenance of an adequate level of             facilities on St. Thomas. The manual
security and control at all correctional        addressed issues such as security and
facilities.                                     maintenance, control of inmates, and
                                                health services. We found copies of the
                                                manual at all corrections officer posts in
                                                the St. Thomas facilities. However, a
                                                comprehensive procedures manual had
                                                not been implemented at the correctional
                                                facilities on St. Croix. Although the
                                                Bureau’s St. Croix branch had written
                                                procedures for certain areas, such as
                                                inmate work assignments and inmate
                                                classification, written guidance was
                                                lacking for most operational areas.

A.2. Institute and enforce procedures to        Partially implemented. We found, by
ensure (a) that accurate and complete           reviewing all logbooks located in the cell
inmate counts are conducted in                  clusters at the facilities on St. Thomas,
accordance with established time frames         that inmate counts were conducted by the
and that the results of such counts are         corrections officers every hour on the
recorded in a logbook; (b) that routine         hour. In addition, the Criminal Justice
information, emergency situations, and          Complex had a “15-minute log book” in
unusual incidents are recorded in the           which corrections officers logged a quick
logbook; and (c) that the practice of           walk-through inspection of the clusters




                                           13
                                                                                 APPENDIX 2
                                                                                   Page 2 of 9


            Recommendations                                Status of Corrective Actions

allowing prisoners to cover their cell door        every 15 minutes. We found, by
windows and lock their cell doors from             reviewing all logbooks located in the
the inside is discontinued.                        prison dormitories at the facilities on St.
                                                   Croix, that inmate counts were conducted
                                                   by the corrections officers four times
                                                   daily. However, there were no written
                                                   procedures specifying the frequency or
                                                   the manner in which inmate counts
                                                   should be made.

                                                   We also found that the Bureau was not
                                                   recording emergency situations and
                                                   unusual incidents in logbooks. In
                                                   addition, the practice of allowing
                                                   prisoners to cover their cell door
                                                   windows and lock cell doors from the
                                                   inside existed at the Golden Grove
                                                   facility on St. Croix.

A.3. Develop and enforce formal                    Partially implemented. The Bureau had
procedures for the work detail and work            formal procedures for the work detail
release programs. These procedures                 programs at the facilities on both islands.
should (a) clearly define the eligibility          Those procedures clearly defined the
requirements for each program, (b)                 eligibility requirements for each work
specify types of crimes which would                detail program, specified the types of
prohibit an inmate from participating in           crimes that would prohibit an inmate
the programs, and (c) ensure adequate              from participating in the programs, and
controls over inmates while they are               ensured that adequate controls existed
participating in the programs.                     over inmates while they were
                                                   participating in the programs. However,
                                                   we found that the established procedures
                                                   were not always followed at the Golden
                                                   Grove facility on St. Croix.

                                                   The Bureau did not .have an active work
                                                   release program on St. Croix, and the
                                                   work release program on St. Thomas was
                                                   based on specific court orders. However,
                                                   formal procedures were not developed for
                                                   the work release program, and no specific
                                                   controls were in place for inmates
                                                   participating in the program.


                                              14
                                                                                  APPENDIX 2
                                                                                    Page 3 of 9


             Recommendations                                Status of Corrective Actions

A.4. Develop post orders for all                     Partially implemented. Post orders were
correction officer positions and ensure              developed for all corrections officer
that these orders are available to and               positions on both islands and were made
understood by the respective officers.               available to all respective officers.
                                                     However, on St. Croix, some of the
                                                     orders were dated as long ago as 1977
                                                     and were probably obsolete. On that
                                                     island, post orders were also issued in the
                                                     form of program statements issued by the
                                                     former warden. We found that at least
                                                     three senior corrections officers were not
                                                     aware of the existence of these program
                                                     statements.

A.5. Develop and enforce formal                      Partially implemented. Procedures for
procedures for controlling contraband                controlling contraband within the
within the correctional facilities. These            correctional facilities were included in
procedures should include provisions for             the procedures manual developed
(a) screening visitors and items brought             on St. Thomas. However, these
to the facilities by visitors, (b) limiting          procedures were not always followed’
physical contact between visitors and                especially regarding shakedowns and
inmates, (c) requiring periodic                      disposal of contraband. We found that
unannounced shakedowns of inmates and                virtually no records were kept on
cell areas, (d) disposing of contraband              shakedowns or the disposal of
that is discovered in the facilities, and (e)        contraband. In addition, our review of
taking actions against inmates and others            prison logbooks for a 6-month period
who bring contraband into the facilities or          found that only one shakedown was
are found possessing contraband.                     conducted and that this was only a partial
                                                     search conducted in two of the seven cell
                                                     clusters.

                                                     St. Croix had unwritten policies regarding
                                                     shakedowns, with the chief or acting
                                                     chief corrections officer determining the
                                                     disposition of confiscated items, such as
                                                     drugs or weapons, and determining when
                                                     senior-level authorities should be called
                                                     in. During our review, we noticed that
                                                     disposable razors were issued to prisoners
                                                     by the Bureau’s procurement officer but
                                                     that the razors were not picked up by



                                                15
                                                                                 APPENDIX 2
                                                                                   Page 4 of 9


            Recommendations                                 Status of Corrective Actions

                                                     corrections officers when inmates were
                                                     finished shaving. We also found that
                                                     disposable razors could be bought by any
                                                     prisoner from the prison commissary. A
                                                     review of incident reports in inmate files
                                                     disclosed that razors had been used as
                                                     weapons during prison disturbances.

A.6. Develop a plan to correct building              Implemented. A plan was developed and
deficiencies which result in inadequate              implemented. We found that guard
security and control for all facilities. This        towers at the Golden Grove facility on St.
plan should address, at a minimum,                   Croix were reconstructed and a new
(a) reconstruction of guard towers,                  guard tower was positioned on the
(b) installation of perimeter and other              western side of the prison’s perimeter. In
security alarm systems, (c) repair of                addition, a new perimeter fence was
surveillance equipment, and (d) repair of            constructed and linked to the control
locking mechanisms in all cells and other            room to notify corrections officers if
secured areas.                                       anything pressed against the fence.
                                                     Locking mechanisms in all cells and
                                                     perimeter areas were repaired at the time
                                                     that cell doors were replaced in 1995.

                                                     On St. Thomas, the surveillance
                                                     equipment was repaired and was in good
                                                     working condition. In addition, all
                                                     electronic locking mechanisms for the
                                                     doors and cells in the facility were in
                                                     good working condition. These repairs
                                                     were also completed in 1995.

A.7. Acquire sufficient communication                Partially implemented. The Bureau
equipment and firearms for correction                provided corrections officers with
officers assigned to inmate and perimeter            sufficient communication equipment. All
areas of the facilities.                             officers in inmate areas had both a hand
                                                     held radio and a telephone, which were
                                                     used to contact the control areas of the
                                                     prisons. However, continued
                                                     improvements for perimeter security are
                                                     needed at the Golden Grove facility.




                                                16
                                                                                APPENDIX 2
                                                                                  Page 5 of 9


            Recommendations                               Status of Corrective Actions

A.8. Institute procedures and physical             Partially implemented. The Bureau did
layout changes to ensure that access to            implement physical layout changes to
control centers at all facilities are              ensure that alarms, communication,
restricted to authorized officers and that         surveillance, and locking mechanisms
alarm, communication, surveillance, and            were controlled from the center.
other systems are controlled from within           However, procedures to ensure that
the control centers.                               access to the control center was restricted
                                                   to authorized corrections officers had not
                                                   been implemented at the Criminal Justice
                                                   Complex on St. Thomas. All corrections
                                                   officers and civilian employees at the
                                                   facility had access to the control center.

                                                   At the Golden Grove facility on St. Croix,
                                                   access to the control center was restricted
                                                   to authorized corrections officers, and all
                                                   prison systems, including fire and
                                                   perimeter alarm systems, were monitored
                                                   from the control room. The Anna’s Hope
                                                   Detention Center on St. Croix did not
                                                   have perimeter alarms or a formal control
                                                   room. However, the control area was
                                                   moved away fi=om the visitor’s desk,
                                                   where it was located at the time of the
                                                   prior audit.

A.9. Develop formal procedures for the             Partially implemented. Formal
control of firearms, security equipment,           procedures for the control of firearms,
and tools and culinary equipment. These            security equipment, and tools and
procedures should (a) limit access to              culinary equipment were developed and
storage areas to authorized personnel, (b)         implemented as part of the procedures
include actions to ensure that corrections         manual for St. Thomas. However, the
officers are strictly accountable for              established procedures were not always
weapons assigned to them, and (c) provide          followed. Specifically, weapons were not
for monthly physical inventories of the            stored away from the facility, monthly
weapons.                                  .        inventories of weapons were not
                                                   conducted, officers were not required to
                                                   sign out for weapons assigned to them,
                                                   and unauthorized Bureau employees had
                                                   access to the weapons.




                                              17
                                                                               APPENDIX 2
                                                                                 Page 6 of 9


            Recommendations                              Status of Corrective Actions


                                                  Written policies and procedures had not
                                                  been developed for St. Croix for the
                                                  control of firearms, security equipment,
                                                  tools, and culinary equipment.

                                                  Additionally, regular inventories of
                                                  fvearms were not conducted. In
                                                  September 1996, several weapons were
                                                  found to be missing from the armory at
                                                  the Golden Grove facility, and the
                                                  Federal Bureau of Investigation was
                                                  called by Bureau of Corrections officials
                                                  to investigate the disappearances.
                                                  Subsequently, the locks at the armory
                                                  were changed, and only the acting
                                                  assistant chief had the keys.

A. 10. Provide uniforms to all correction         Implemented. We observed that all
officers and inmates that distinguish             corrections officers at the Criminal
officers from prisoners. Correction               Justice Complex on St. Thomas were in
officers and inmates should be required to        full uniform. In addition, all inmates
wear the uniforms.                                were in full inmate uniforms when they
                                                  were outside of their cell clusters. On St.
                                                  Croix, the corrections officers’ uniforms
                                                  were generally faded and in short supply.
                                                  However, despite this factor, we observed
                                                  that corrections officers were easily
                                                  distinguished from the inmates, who were
                                                  in full inmate uniforms or in grey and
                                                  white clothing while on laundry duty or
                                                  in recreational status.




                                             18
                                                                                 APPENDIX 2
                                                                                   Page 7 of 9


            Recommendations                                Status of Corrective Actions

A. 11. Institute a formal system for               Partially implemented. The Bureau had
classifying inmates as to level of risk and        standard policies on both islands for
make cell assignments so that low-risk             classifying inmates as to level of risk.
inmates are separated from violent high-           However, our reviews of cell assignments
risk prisoners.                                    disclosed that the policies were not always
                                                   complied with at the Golden Grove facility
                                                   on St. Croix. We noted instances in which
                                                   high-risk prisoners were housed in the
                                                   same cells as low-risk prisoners,
                                                   including the dormitory housing female
                                                   prisoners at Golden Grove.

                                                   On St. Thomas, cell assignments were not
                                                   made with regard to inmate
                                                   classifications. All types of inmates,
                                                   from low- to high-risk, were housed in
                                                   the same cell clusters.

B. 1. Develop a comprehensive                      Not implemented. The Bureau did not
preventive maintenance plan for the                implement a comprehensive maintenance
Bureau of Corrections. The preventive              plan for any of its correctional facilities.
maintenance plan should (a) identify               Although monthly preventive
specific plant and equipment items which           maintenance checklists were prepared for
require regular maintenance, (b) specify           the Golden Grove facility and the Anna’s
the minimum inspection interval for such           Hope Detention Center on St. Croix, such
items, (c) provide standards and                   checklists were not available on St.
procedures for completing regular                  Thomas.
maintenance, (d) provide procedures for
documenting the completion of regular
inspections and actual maintenance
provided, and (e) provide procedures for
handling special repair and maintenance
needs in a timely manner.

B.2. Take the actions necessary to                 Partially implemented. Although some
implement the corrective action plan               progress was made on implementing the
developed in response to the 1986                  corrective action plan for the Golden
consent decree concerning the Golden               Grove facility on St. Croix, some
Grove Adult Correctional Facility.                 deficiencies still existed. We found that,
                                                   although improvements were made in the




                                              19
                                                                             APPENDIX 2
                                                                               Page 8 of 9


           Recommendations                              Status of Corrective Actions

                                                areas of emergency care, medication, and
                                                some sanitation issues, the Bureau was
                                                not in full compliance in the areas of
                                                providing fire safety, screening windows,
                                                and controlling tools.

B .3. Provide the Bureau with the               Partially implemented. On St. Croix, the
resources necessary to staff a full-time        Bureau created a full-time maintenance
maintenance unit consisting of a                unit at the Golden Grove facility in
sufficient number of qualified                  March 1997.
maintenance personnel at each
correctional facility.                          On St. Thomas, the Bureau hired a
                                                civilian in 1995 to be its maintenance
                                                engineer, but there was no full-time
                                                maintenance unit. Additionally, despite
                                                the presence of the maintenance engineer,
                                                we noted numerous maintenance
                                                problems at the Criminal Justice
                                                Complex, including needed repairs of the
                                                emergency generator, the ventilation
                                                system, and the roof.

B.4. Take immediate action to correct           Partially implemented. Most of the repair
the repair and maintenance deficiencies         and maintenance problems disclosed by
noted by our audit and other studies            our prior audit and studies conducted by
performed for the Government of the             the corrections experts have been
Virgin Islands by Federal Bureau of             corrected. Light fixtures, cameras,
Prisons and National Association of             monitors, and plumbing were all found to
Corrections experts.                            be in working condition at the Criminal
                                                Justice Complex on St. Thomas. In
                                                addition, all doors and locks in the cell
                                                areas, which were previously operated by
                                                draw bolt, had electrical buttons or dead
                                                bolts.

                                                At the Golden Grove facility on St. Croix,
                                                most of the repair and maintenance
                                                deficiencies have been corrected by the
                                                Bureau. However, most windows in the
                                                dormitories were in disrepair and were
                                                bent, could not be opened and



                                           20
                                                                             APPENDIX 2
                                                                               Page 9 of 9


            Recommendations                            Status of Corrective Actions

                                                closed (which caused inmates to get wet
                                                when it rained), or were completely
                                                missing. In addition, the majority of the
                                                window screens in the dormitories were
                                                missing or had large holes in them.

                                                Conditions at the Anna’s Hope Detention
                                                Center were essentially unchanged from
                                                the time of the prior audit. We found that
                                                most of the urinals and toilets were
                                                inoperative and that the ones which were
                                                working were in an unsanitary condition.

B.5. Take immediate action to develop            Implemented. We reviewed
maintenance plans required to meet the           correspondence which showed that the
requirements of the U.S. Department of          Bureau developed maintenance plans
Interior, the U.S. Marshals Service, and         required to meet the requirements of two
the Federal Emergency Management                of the three grantor agencies.
Agency grants for prison renovation and         Additionally, although Bureau officials
expansion to correct noted deficiencies.        could not locate documentation
                                                concerning the submission of the
                                                maintenance plans to the U.S. Marshals       -
                                                Service, we found that the Bureau
                                                received the grant from the Marshals
                                                Service, which we believe indicates that
                                                the Service was satisfied with the
                                                Bureau’s maintenance plans.




                                           21
                                                                                  APPENDIX 3
                                                                                    Page 1 of 2


                    STATUS OF RECOMMENDATIONS
                      AND CORRECTIVE ACTIONS
                         FOR AUDIT REPORT
                      “PRISON OVERCROWDING,
                      BUREAU OF CORRECTIONS,
                 GOVERNMENT OF THE VIRGIN ISLANDS”
                             (No. 92-I-90)

             Recommendations                               Status of Corrective Actions

 A. 1. Develop and implement a                      Not implemented. The Bureau of
 comprehensive plan to increase the                 Corrections did not develop a
 available prison capacity in the Virgin            comprehensive plan to increase the prison
 Islands. This plan should consider (a)             capacity in the Virgin Islands. As a result,
realistic projections of future needs,              the Criminal Justice Complex on St.
considering the high level of crime, and            Thomas was filled to 196 percent of its
longer mandatory sentences; (b) the return          design capacity. Cells at the Complex
of inmates currently housed in Federal              that were designed to hold one inmate
prisons to the Virgin Islands; (c) the level        housed as many as four inmates.
to which existing prison facilities can meet
capacity needs; (d) special facilities and          In an attempt to address the problem of
programs to provide inmates with medical,           overcrowding, in July 1997, Bureau
substance abuse, and mental health                  officials moved 70 inmates to an
treatment and a variety of rehabilitative           institution in Arizona. They also
services; (e) physical layout, including            transferred 24 inmates from the Criminal
security and isolation measures to protect          Justice Complex to the Golden Grove
the general community; and (f) detailed             facility on St. Croix. However, the total
cost estimates and potential funding                projected cost of incarceration for the
sources, including the possibility of               inmates in Arizona will be $1.5 million
Federal funding and the issuance of bonds.          per year.

A.2. Encourage the Territorial Court to             Partially implemented. The Territorial
conduct a feasibility study of                      Court implemented an alternative
implementing alternative sentencing                 sentencing program known as the Pre-
programs in the Virgin Islands. If such             trial Intervention Program. This program
programs are found to be feasible,                  allowed first time offenders who
legislation should be submitted to allow            committed misdemeanor crimes to
the Territorial Court to consider                   participate in a community-based
alternative sentencing programs when                program rather than to serve time in
sentencing non-violent convicted                    prison. However, neither a feasibility
criminals. Thereafter, the Territorial Court        study nor legislation concerning



                                               22
                                                                                 APPENDIX 3
                                                                                   Page 2 of 2


            Recommendations                                 Status of Corrective Actions

should establish policies and procedures            alternative sentencing was developed.
for the operation of such programs.

B. 1. Recompute good conduct                        Partially implemented. Good conduct
allowances earned for all inmates serving           allowances were recomputed, but we
sentences to ensure that good conduct               found that the allowances were not
allowances are credited in accordance with          accurate. As a result, we did not find any
the Virgin Islands Code. This                       instances in which an inmate was released
recomputation should include crediting              on the correct release date.
good conduct allowances to inmates only
for the full months they served and
excluding months in which infractions
were committed or forfeitures were
ordered.

B.2. Establish written procedures for the           Not implemented. Although penalties for
forfeiture of accumulated good time for             committing infractions were included in
misconduct. These procedures should                 written procedures for St. Thomas, the
include minimum-to-maximum ranges for               procedures did not contain any ranges for
the forfeiture of good time for each type of        the forfeiture of good time allowances for
infraction and should be included in the            each infraction. The facilities on St.
penalties listed in the Bureau’s Rules for          Croix did not have written procedures for
Inmate Conduct.                                     the forfeiture of good time for
                                                    misconduct.

B.3. Establish written procedures to                Not implemented. Although the
ensure that inmates’ official records               procedures manual for St. Thomas
document the infractions committed and              contained a section on inmate
the forfeitures of good conduct                     classification, it did not include any
allowances ordered and that inmate release          procedures for recording infractions good
dates are adjusted to reflect the amount of         time forfeited’ or the adjustment of
good conduct time disallowed or forfeited           inmate release dates. There were no
for infractions of Bureau rules.                    written procedures at the facilities on St.
                                                    Croix to ensure that inmates’ official
                                                    records documented the infractions
                                                    committed, the forfeiture of good conduct
                                                    allowances ordered, and the adjustment of
                                                    inmate release dates.




                                               23
                                                                                 APPENDIX 4
                                                                                   Page 1 of 6

                 STATUS OF RECOMMENDATIONS
                   AND CORRECTIVE ACTIONS
                      FOR AUDIT REPORT
           “INMATE CARE, REHABILITATION, AND SAFETY,
                   BUREAU OF CORRECTIONS,
              GOVERNMENT OF THE VIRGIN ISLANDS”
                          (No. 93-I-363)

             Recommendations                               Status of Corrective Actions

A. 1. Develop and implement a                       Not implemented. The Bureau did not
comprehensive system, including formal              develop a comprehensive system,
written policies and procedures, to correct         including written policies and procedures,
deficiencies in sanitation and personal             to correct the identified deficiencies.
hygiene conditions. The system should               Although the Bureau provided clean and
(a) require at least monthly sanitation             safe water for drinking and bathing
inspections by Bureau sanitation                    purposes for inmates at all facilities by
specialists and annual inspections by the           installing ultraviolet water purifiers at
Virgin Islands Department of Health; (b)            both facilities on St. Croix and by
provide inmates with clean and safe water           receiving monthly water safety tests by an
for drinking and bathing; and (c) provide           outside contractor on St. Thomas,
inmates with personal hygiene items such           monthly sanitation inspections were not
as soap, toothbrushes, toothpaste, combs,          conducted at any facility. In March 1997,
and toilet paper.                                  the Criminal Justice Complex on St.
                                                   Thomas did not pass an inspection
                                                   conducted by the Department of Health.
                                                   In addition, on both St. Thomas and St.
                                                   Croix, the Bureau did not provide
                                                   personal hygiene items such as soap,
                                                   toothbrushes, toothpaste, combs, and
                                                   toilet paper to inmates on a consistent
                                                   basis. These items were regularly in short
                                                   supply at all facilities.

A.2. Develop and implement a                       Partially implemented. The Bureau
comprehensive system, including formal             established standard operating procedures
written policies and procedures, to correct        that included procedures to correct the
deficiencies in food service operations.           identified deficiencies for St. Thomas.
The system should (a) provide for routine          However, we found that many of the
cleaning of the kitchen facilities and             sanitation deficiencies continued to exist.
equipment and (b) ensure that kitchen              For examnle. during its insnection of




                                              24
                                                                                  APPENDIX 4
                                                                                    Page 2 of 6
             Recommendations                                Status of Corrective Actions

equipment and fixtures are in good                  the Criminal Justice Complex, the
operating condition.                                Department of Health found that some
                                                    food items were past their expiration dates
                                                    and toxic materials were stored on the
                                                    same shelves as food items. We also
                                                    found that kitchen equipment and fixtures
                                                    were blackened and in poor operating
                                                    condition from years of use without repair
                                                    or replacement.

                                                    Sanitation procedures had not been
                                                    developed for the facilities on St. Croix,
                                                    and the kitchen at Golden Grove had been
                                                    operating without a health permit for 3
                                                    years. Despite these deficiencies, we
                                                    noted that the kitchen equipment and
                                                    fixtures were clean and in good operating
                                                    condition.

A.3. Develop and implement a                        Implemented. A comprehensive plan was
comprehensive system, including formal              established to provide medical and dental
written policies and procedures, to correct         care to inmates at the Criminal Justice
deficiencies in medical and dental                  Complex on St. Thomas. Preventive and
services. The system should (a) provide a           general dental care was provided by a
full-time registered nurse for the Golden           contracted dentist. We did note, however,
Grove Correctional Facility and (b)                 that the nurse’s station was frequently
provide inmates and juvenile offenders              manned by a licensed practical nurse
with preventive and general dental care.            without the supervision of a registered
                                                    nurse, who would have been trained to
                                                    deal with emergency situations.

                                                    The Bureau provided a full-time
                                                    registered nurse for the Golden Grove
                                                    facility on St. Croix and also provided
                                                    preventive and general dental care to
                                                    inmates in a medical and dental facility
                                                    constructed within the prison complex.

B. 1. Introduce legislation to amend                Not implemented. Legislation was never
Title 5, Chapter 40 1, of the Virgin Islands        introduced, and participation in the work
Code to allow the Bureau of Corrections             programs continues to be voluntary.
to require inmates to participate in prison



                                               25
                                                                               APPENDIX 4
                                                                                 Page 3 of 6
            Recommendations                               Status of Corrective Actions

work programs unless they are
participating in an approved educational
or vocational training program.

B.2. Ensure that a comprehensive                   Partially implemented. The Bureau
educational program for incarcerated               established and implemented an
individuals with courses leading to                educational program with courses leading
functional literacy and achievement of a          to literacy and achievement of a GED
General Education Development (GED)                diploma for inmates at the Golden Grove
high school equivalency certificate is            facility on St. Croix. Classrooms were set
established and implemented in                    up in the facility, and 52 inmates were
coordination with the Department of               enrolled, with 30 inmates in either the
Education. Incentives should be                   advanced GED or pre-GED groups. Five
implemented to encourage inmates who              inmates have already graduated from the
have not achieved the level of education          GED program. In addition, the Bureau
commensurate with their age to                    established literacy programs for inmates
participate in the educational program.           who could not read or write. Inmates were
                                                  recruited, and incentives for participation
                                                  were provided, including contact visits
                                                  and graduation exercises to which the
                                                  inmates’ families were invited.

                                                  Although Federal funds were available,
                                                  the Bureau did not provide classes on St.
                                                  Thomas that would prepare inmates for
                                                  the achievement of a GED diploma or that
                                                  would lead to their achievement of
                                                  functional literacy. We found that St.
                                                  Thomas inmates had the opportunity to
                                                  attend only adult basic education classes
                                                  which were taught by two volunteer
                                                  teachers. These classes were held 3 days
                                                  a week in a small room at the Criminal
                                                  Justice Complex that also serves as a
                                                  library, and only seven inmates
                                                  participated.

B.3. Establish and implement a                    Not implemented. The Bureau had not
comprehensive program of vocational and           established and implemented a
prison industries activities to afford            comprehensive vocational program at any
inmates the opportunity to learn skills to        of the correctional facilities. The Golden




                                             26
                                                                                 APPENDIX 4
                                                                                   Page 4 of 6
            Recommendations                                Status of Corrective Actions

help them obtain employment when                   Grove facility on St. Croix had limited
released from prison. Incentives should            vocational programs in the fields of
be provided to encourage inmates to                carpentry, automotive repair, and
participate in at least one such vocational        agriculture, but these programs were used
or prison industries activity. Inmates who         primarily for work detail purposes.
choose not to participate should be                However, we found that the Bureau was
required to perform other work within the          in the final stages of developing a
correctional facilities.                           comprehensive vocational and prison
                                                   industries program and had received two
                                                   grants for this purpose through the Virgin
                                                   Islands Law Enforcement Planning
                                                   Commission.

                                                   There were no vocational programs for
                                                   inmates at the Criminal Justice Complex
                                                   on St. Thomas. The Criminal Justice
                                                   Complex Annex had a carpentry shop in
                                                   which two inmates who were skilled in
                                                   carpentry made mahogany clocks and
                                                   other items for sale at the island’s annual
                                                   agricultural fairs. However, the program
                                                   was not designed to provide vocational
                                                   education to unskilled inmates.

B.4. Establish and implement a                     Not implemented. Although the Virgin
comprehensive substance abuse program              Islands Law Enforcement Planning
and actively encourage inmates with                Commission made about $400,000
substance abuse problems to participate in         available to the Bureau for the
the program.                                       establishment of substance abuse
                                                   programs, such programs had not been
                                                   established at any of the correctional
                                                   facilities.

B.5. Provide the Department of Human               Implemented. The Youth Rehabilitation
Services with the funding necessary to             Center was transferred to the Department
accomplish the planned transfer of the             of Human Services from the Bureau of
Youth Rehabilitation Center from the               Corrections in 1993. Comprehensive
Bureau of Corrections and establish                educational programs presented by the
comprehensive educational, vocational,             Department of Education were established
substance abuse, and other rehabilitative          at the Center, along with programs in
programs for juvenile offenders.                   horticulture, air conditioning and
                                                   refrigeration repair, and electronics.



                                              27
                                                                                APPENDIX 4
                                                                                  Page 5 of 6
            Recommendations                               Status of Corrective Actions

                                                   Counselors were also provided for
                                                   substance abusers.

C. 1. Improve the emergency capabilities          Partially implemented. Although
of all correctional facilities by (a)             emergency capabilities were improved at
installing centralized smoke detection and        all correctional facilities, several
alarm systems, (b) ensuring that all              deficiencies existed. On St. Croix, we
emergency exits are operational, and (c)          found that centralized smoke detectors
providing those correction officers on            and alarm systems were installed at both
duty in inmate living areas with                  facilities. However, the system at the
emergency keys.                                   Golden Grove facility was inoperative at
                                                  the time of our review. Golden Grove
                                                  also had a working centralized alarm
                                                  system to notify corrections officers of
                                                  any activity at the perimeter fences. All
                                                  emergency exits were working at Golden
                                                  Grove, and all officers had access to
                                                  emergency keys.

                                                  However, we found that the Anna’s Hope
                                                  facility on St. Croix still did not have a
                                                  perimeter alarm system and that several
                                                  emergency doors could not be opened. In
                                                  addition, keys were not easily accessible
                                                  and identifiable during an emergency
                                                  because they were kept on rings with a
                                                  large number of other keys.

                                                  On St. Thomas, the smoke detection and
                                                  monitoring systems were in good
                                                  operating condition, all emergency exits
                                                  were in an operative condition, and keys
                                                  were accessible to the corrections officers
                                                  on duty in inmate living areas.

C.2. Obtain new or repair existing fire           Partially implemented. On St. Croix, the
fighting equipment to ensure that all             Fire Service had not conducted a tie
correctional facilities meet minimum              safety inspection at the Golden Grove
standards necessary to pass fire                  facility in 1 and l/2 years. At that time,
inspections by the Virgin Islands Fire            although most sections of the prison
Service. This equipment should include            passed the inspection, the Fire Service
an adequate number of fne extinguishers,          found problems with the smoke detection



                                             28
                                                                                  APPENDIX 4
                                                                                    Page 6 of 6
            Recommendations                                 Status of Corrective Actions

emergency lighting, continuously                    and electrical systems. We found that a
illuminated exit signs, and operational fire        major deficiency at the facility was a lack
hydrants or water standpipes.                       of maintenance of fire extinguishers in the
                                                    dormitory areas. More than one-half of
                                                    the extinguishers needed recharging and
                                                    therefore were inoperative. Bureau
                                                    officials had the extinguishers recharged
                                                    when we brought this problem to their
                                                    attention. We also found that, although
                                                    emergency lighting was sticient, there
                                                    were no lighted exit signs in any of the
                                                    dormitory areas. We also found that none
                                                    of the fire hydrants at or around the
                                                    Golden Grove facility were working.

                                                    We could not locate a Fire Service
                                                    inspection report for the Anna’s Hope
                                                    Detention Center. We found that fire
                                                    extinguishers were available in all areas of
                                                    the Center, but several smoke detectors
                                                    were inoperative. To repel mosquitoes,
                                                    detainees were allowed to use fire-lighted
                                                    pieces of rolled up toilet paper, which
                                                    constituted a fire hazard. Also, there were
                                                    no lighted exit signs or emergency
                                                    lighting at the Center.

                                                     On St. Thomas, Fire Service inspections
                                                    were conducted at the Criminal Justice
                                                     Complex on a regular basis. We also
                                                    found that all fire extinguishers were in
                                                    working condition, there were illuminated
                                                    exit signs over all doors, and an adequate
                                                    number of water standpipes were
                                                    available. However, according to the Fire
                                                    Service inspection reports, the Bureau
                                                    needed to make improvements in the
                                                    facility’s ventilation system and manual
                                                    fire alarms. We also noted that
                                                    emergency lighting at the Complex was
                                                    inoperative.




                                               29
I
                                                                                     APPENDIX 5
                                                                                       Page 1 of 5

                        STATUS OF RECOMMENDATIONS
                          AND CORRECTIVE ACTIONS
                             FOR AUDIT REPORT
                    “PERSONNEL, PROPERTY MANAGEMENT,
                       AND PROCUREMENT PRACTICES,
                          BUREAU OF CORRECTIONS,
                    GOVERNMENT OF THE VIRGIN ISLANDS”
                                (No. 934470)

                Recommendations                                Status of Corrective Actions

    A. 1. Establish a comprehensive                     Not implemented. The Bureau did not
    correction officer recruitment and                  establish a comprehensive officer
    retention program, similar to the one               recruitment and retention program for any
    recommended in September 1991 by the                of its facilities. As a result, the Bureau
    Bureau’s training supervisor, to ensure that        continued to experience shortages of
    the Bureau has a sufficient number of               corrections officers, resulting in overtime
    correction officers to provide adequate             costs of $1.4 million in fiscal year 1996
    security at correctional facilities and to          and $445,952 in fiscal year 1997 (through
    reduce the amount of overtime work                  April 30, 1997).
    necessary to maintain such security.

    A.2. Establish written payroll policies             Not implemented. Although the Bureau
    and procedures to ensure that time and              issued memoranda outlining overtime
    attendance records are reconciled to                procedures, the Bureau did not establish
    approved overtime slips and that officers           detailed written payroll policies and
    are prohibited from accumulating                    procedures to ensure that time and
    approved overtime slips.                            attendance records were reconciled to
                                                        approved overtime records.

    A.3. Reconcile the time and attendance              Not implemented. We found that payroll
    records for the 66 correction officers              transactions were not consistently
    identified in our sample who were either            recorded, resulting in overpayments and
    overpaid or underpaid for overtime work             underpayments to corrections officers.
    and make the necessary payroll
    adjustments to correct these errors.




                                                   30
                                                                                  APPENDD(: 5
                                                                                    Page 2 of 5
              Recommendations                                Status of Corrective Actions

 A.4. Provide the Bureau with sufficient             Not implemented. The Bureau continued
 administrative staff so that the practice of        to have a shortage of administrative staff
 assigning noncorrection duties to                   that resulted in the assignment of
 correction officers can be discontinued.            corrections officers to perform
                                                     administrative duties. On St. Croix,
                                                     corrections officers were assigned to
                                                     positions of classification officer,
                                                     purchasing officer, and cashier. On
                                                     St. Thomas, corrections officers held
                                                     administrative positions of payroll clerk,
                                                     property management officer, and cook.

A.5. Establish policies and procedures to            Not implemented. Policies and procedures
ensure that recommendations by the                   were not established to ensure that the
Bureau’s Selection Committee and                     Committee’s recommendations and
background investigation reports are                 background investigations were
considered and that Bureau actions                   considered in the selection of corrections
contrary to those recommendations are                officer candidates. In addition, minutes of
fully documented and justified.                      Committee meetings were not maintained.
                                                     We found that, as a result, discrepancies
                                                     identified by background investigations
                                                     were sometimes ignored and there was
                                                     little assurance that the Committee’s
                                                     recommendations were taken into
                                                     consideration. _

B. 1. Establish and fill a position for a            Not implemented. A territorial training
territorial training coordinator, who would          coordinator was not hired, and the Bureau
be responsible for overall supervision and           was without the services of an official
coordination of staff training programs at           responsible for the overall supervision and
all facilities operated by the Bureau of             coordination of staff training programs.
Corrections.

B.2. Develop and implement a                         Partially implemented. A comprehensive,
comprehensive, formal training plan for              formal training plan was included in the
use in administering the Bureau of                   St. Thomas procedures manual. However,
Corrections staff training program. This             the manual did not contain the specific
plan should include the establishment of             items recommended in the prior audit,
written training policies and procedures             such as the type and length of required
and a requirement that the training plan             training, and the manual’s training
should be evaluated and updated annually.            procedures were not complied with. In
Implementation of the training plan should           addition, a comprehensive training plan
ensure that (a) training courses are                 had not been developed for St. Croix.




                                                31
                                                                                   APPENDIX 5
                                                                                     Page 3 of 5
             Recommendations                                 Status of Corrective Actions

conducted in a cost effective manner, with           Because the two islands were not using
consideration to minimum class sizes and             the same training policies and procedures,
efficient scheduling of classes; (b) the             training courses were not standardized.
annual training budget is suAficient to meet         Further, complete records were not
the training needs of all correction                 maintained on the training received by
officers; (c) the type and length of pre-            corrections officers.
service, in-service, and specialized training
courses offered on St. Thomas and St.                We also found that because the Bureau
Croix are standardized; (d) policies and             did not budget or receive funds for a
procedures are established to evaluate               training program, corrections officers who
pre-service, in-service, and specialized             conducted training classes were not
training programs on an ongoing basis;               provided with the equipment necessary to
and (e) accurate and complete training               conduct the training and that they
information is maintained for each                   purchased classroom supplies with
correction officer to identify the type and          personal funds.
number of hours of training received.


B.3. Discontinue the practice of allowing            Partially implemented. Although the
new employees to function as correction              practice of assigning new employees to
officers before they have successfully               function as corrections officers before
completed pre-service training                       they completed pre-service training was
requirements.                                        discontinued on St. Croix, this practice
                                                     continued on St. Thomas. We also noted
                                                     that new employees did not receive
                                                     firearms training until periods of up to 4
                                                     months after they completed other pre-
                                                     service training.

B.4. Ensure that the training supervisor             Not implemented. Training supervisors
is allowed to perform the full duties and            were not able to perform the full duties
responsibilities of the position.                    and responsibilities of their positions
                                                     because of the lack of a training budget.

B.5. Require that all correction officers            Partially implemented. Corrections
meet annual requirements for pre-service,            officers met annual requirements for pre-
in-service, and specialized training. To             service training, but the amount of
ensure that these requirements are met,              training received by officers on St.
officers who do not attend scheduled                 Thomas and St. Croix differed because of
courses should be rescheduled; officers              the lack of a standardized training plan.
should successfully complete and achieve             Officers on St. Thomas received about 7




                                                32
                                                                                  APPENDIX 5
                                                                                    Page 4 of 5
             Recommendations                                 Status of Corrective Actions

passing grades in each course; and officers           weeks of training as compared with the 3
should receive required training in the use           months of training received by corrections
of firearms, emergency first aid, and riot            officers on St. Croix.
control.
                                                     Annual training and specialized training
                                                     requirements were not met by the Bureau.
                                                     None of the officers reviewed received the
                                                     mandatory 40 hours of in-service training
                                                     required by union contracts, and
                                                     specialized training courses were not
                                                     provided for all corrections officers.
                                                     Specifically, 10 officers did not receive
                                                     firearms training, 9 officers did not
                                                     receive self-defense training, and 1 officer
                                                     did not receive cardiopulmonary
                                                     resuscitation (CPR) training.

B.6. Provide a suitable training facility            Implemented. A facility with a safe and
on St. Croix to conduct classes in a safe            controlled environment suitable for
and controlled environment.                          training was provided at the Department
                                                     of Justice’s Toro Building location on St.
                                                     Croix.

C.l. Require that Bureau of Corrections               Partially implemented. The Bureau did,        .   I
officials comply with the provisionsof 1              not comply with property control
Title 3 1, Section 242, of the Virgin Islands         requirements, and standardized property
Code and the Government’s Property                    control procedures were not implemented
Manual regarding the control of equipment            to ensure that property numbers were
and supplies. To ensure compliance, the               assigned and affixed on all equipment.
Bureau should (a) implement standardized             Regarding supplies, on St. Croix, the
property control procedures, (b) maintain            Bureau prepared property cards for each
accurate and complete property records,               item and performed weekly physical
(c) establish procedures to ensure that              inventories. However, the inventory
property numbers are assigned and affixed            results were not reconciled to the
to items, (d) perform physical inventories           property cards, resulting in inaccurate
and reconcile inventory results to property          balances on the cards. In addition, there
records, (e) segregate accounting and                was an inadequate level of separation of
physical control duties at each storeroom            duties because the property officer was
location, and (f) limit storeroom access to          responsible for procuring, purchasing,
authorized personnel.                                receiving, and distributing equipment and
                                                     supplies. Also, access to the storeroom
                                                     was not limited during the weekend, when
                                                     the property officer was off duty.




                                                33
                                                                                 APPENDIX 5
                                                                                   Page 5 of 5
             Recommendations                                Status of Corrective Actions

                                                    On St. Thomas, the acting property officer
                                                    did not maintain supply inventory cards
                                                    and property cards or perform periodic
                                                    inventory counts. In addition, the
                                                    property officer was the only person who
                                                    had access to the storeroom and the only
                                                    person authorized to accept deliveries of
                                                    equipment and supplies, which did not
                                                    provide an adequate level of segregation
                                                    of duties.

C.2. Appoint a property management                  Implemented. A property management
officer at the St. Thomas Criminal Justice          officer was appointed at the Criminal
Complex.                                            Justice Complex. That individual
                                                    resigned in May 1997, but a corrections
                                                    officer was subsequently assigned the
                                                    responsibilities of that position.

C.3. Require that the Bureau of                     Not implemented. Policies and
Corrections establish policies and                  procedures were not implemented to stop
procedures to stop the practice of splitting        the practice of splitting purchases and to
purchases to circumvent the established             ensure that vendors are paid within the
limit on over-the-counter purchases and to          prompt discount periods offered by the
ensure that vendors are paid within the             vendors. Therefore, the procurement-
prompt discount periods offered by the              related problems identified in the prior
vendors.                                            audit report still existed.




                                               34
                                                                          APPENDIX 6

                                            1
       STATUS OF AUDIT REPOR RECOMMENDATIONS


Finding/Recommendation
       Reference           Status                      Action Reauired

         l-6             Unresolved.    Provide a response to each recommendation
                                        indicating concurrence or nonconcurrence. If
                                        concurrence is indicated, provide an action
                                        plan that includes a target date and title of the
                                        official responsible for implementation. If
                                        nonconcurrence is indicated, provide specific
                                        reasons for the nonconcurrence.




                                       35
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                   Calling:


                     Within the Continental United States

U.S. Department of the Jwjterior                      Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D.C. 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Czkibbean Retion                    ..-

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                       (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
  l-800-424-5081
  TDD l-800-354-0996
FI’S/Commerciai Numbers:
 (2021 2085300
 TDti (202) 208-2420



1849 C Stree& N.W.         EII,.
Mail Stop 5341             s
                               ..
Washington. D.C. 20240          .
